SUPREME COURT OF THE
UNITED STATES--------------

DOCKET-NO-

BERKA, GEORGE
OFFICE OF THE CLERK
v.
AUGUST 25, 2021

ANDREW M. CUOMO

AFFIDAVIT OF SERVICE
I, George Berka, hereby certify that on August 25th, 2021, I caused to be served
three (3) copies of the Petition and Appendix for the above - captioned matter, to
the following party, via electronic mail, and / or via the United States Postal
\
Service, postage prepaid:
. Joshua Tallent
Assistant Attorney General
New York State Office of the Attorney General
The Capitol | Albany, NY 12224
Also, on the same date as above, I sent this Court one (1) copy of the same Petition
and Appendix, via the United States Postal Service, postage prepaid.
All parties required to be served have been served.
I declare under penalty of perjury that the following is true and correct.
Executed on August 25th, 2021
-nj

George Berka,
Petitioner

—

